<html>
<title> - MARKUP OF H.R. 1980, THE SMITHSONIAN WOMEN'S HISTORY MUSEUM ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    MARKUP OF H.R. 1980, THE SMITHSONIAN WOMEN'S HISTORY MUSEUM ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 12, 2019

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-612                    WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------         
         
      
         
                   Committee on House Administration
                             116th Congress

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
SUSAN A. DAVIS, California               Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California

 
    MARKUP OF H.R. 1980, THE SMITHSONIAN WOMEN'S HISTORY MUSEUM ACT

                              ----------                              


                       TUESDAY, NOVEMBER 12, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 6:03 p.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(Chairperson of the Committee) presiding.
    Present: Representatives Lofgren, Butterfield, Fudge, 
Aguilar, Davis of Illinois, and Walker.
    Staff Present: Sean Jones, Legislative Clerk; David Tucker, 
Parliamentarian; Khalil Abboud, Deputy Staff Director; Peter 
Whippy, Communications Director; Meredith Connor, Professional 
Staff; Mariam Malik, Staff Assistant; Eddie Flaherty, Chief 
Clerk; Courtney Parella, Minority Communications Director; Tim 
Monahan, Minority Deputy Staff Director; Jesse Roberts, 
Minority Counsel; and Jennifer Daulby, Minority Staff Director.
    The Chairperson. A quorum being present, the Committee will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Pursuant to Committee Rule 4 and clause 2(h)(4) of House 
Rule XI, the Chair announces she may postpone further 
proceedings today if a recorded vote is ordered on the question 
of approving a measure or matter or on adopting an amendment.
    I am advised that our Ranking Member is in the elevator on 
his way and that we should proceed so we will and I will do so 
by making a few remarks.
    Today, we are considering H.R. 1980, the Smithsonian 
Women's History Museum Act. This legislation will establish a 
comprehensive women's history museum within the Smithsonian 
Institution.
    I would like to commend our colleague from New York, 
Representative Carolyn Maloney, whose tireless advocacy over 
more than two decades laid the foundation for today's markup. 
As a result of her hard work and the hard work of others, this 
bill has 293 cosponsors, including 59 Republicans.
    In fact, this bill is so popular that it was placed on the 
Consensus Calendar, which was established at the beginning of 
this Congress for bills with at least 290 cosponsors that have 
not been reported out of committee. I applaud Congresswoman 
Maloney's use of this new calendar, and I am pleased to now 
exercise our Committee's jurisdiction during this markup.
    It is impossible to tell the story of America without 
telling the story of American women. From the days of our 
Nation's infancy through today, the United States has benefited 
from the contributions and sacrifices of women.
    In colonial times, the Daughters of Liberty helped spark 
the American Revolution. In our early days of independence, 
Sacagawea guided Lewis and Clark on their infamous expedition. 
In the lead-up to the Civil War, Harriet Tubman escaped from 
slavery and guided dozens of slaves to freedom. A few decades 
later, women like Susan B. Anthony dedicated their lives to the 
fight for women's suffrage.
    During World War II, 6.5 million women entered the labor 
force to support the war effort. One of them was my mother, who 
worked at the Douglas Aircraft plant in south San Francisco 
making planes for the war effort. Later in the 20th century, 
Rosa Parks sparked the Montgomery bus boycott and Sandra Day 
O'Connor took the bench as the first woman appointed to the 
Supreme Court.
    In 2007, we elected our first woman Speaker of the House, 
and, in 2019, we elected the same woman again. The American 
people sent an unprecedented 117 women to represent them here 
in Congress.
    However, even with these and countless other 
accomplishments by women in the U.S., historical accounts, 
monuments, and museums disproportionately represent the 
achievements of men while neglecting those of women. A variety 
of studies have shown that history textbooks discuss the 
accomplishments of men exponentially more often than those of 
women.
    As the report from the Commission established by Congress 
to assess the need for a women's museum stated, of the 44 
national memorials managed by the National Park Service, only 1 
specifically honors the achievements of women. The 
contributions and experiences of American women deserve 
celebration and recognition, and I can think of few better ways 
to do so than by establishing a women's history museum at the 
Smithsonian.
    The Smithsonian Women's History Museum Act mirrors the 
highly successful National Museum of African American History 
and Culture Act. Like that bill, this bill calls for a 50/50 
split between Federal and non-Federal funding, a model that 
worked very well for the African American History Museum. It 
also expresses a preference for a museum site on the National 
Mall.
    I am hopeful that, today, nearly 100 years after women were 
granted the right to vote, we will take the first step in 
creating a museum to recognize these achievements and to 
inspire future generations.
    I would now like to recognize our Ranking Member, Mr. 
Davis, for any comments he may like to offer.
    [The statement of the Chairperson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Davis of Illinois. Thank you, Chairperson Lofgren.
    Since its establishment in 1846, the Smithsonian has become 
the world's largest museum, education, and research 
organization. The Institution preserves and celebrates our 
Nation's cultural heritage and advances scientific discovery in 
multiple disciplines.
    On behalf of the American people, Congress, the Board of 
Regents, and Smithsonian management have a responsibility to 
ensure the continued success of the institution for future 
generations.
    The Smithsonian has a broad mission--the increase and 
diffusion of knowledge--and a bold strategic plan to support 
that mission.
    A critical goal in the plan is to reach one billion people 
a year through a digital-first strategy. Making the 
Smithsonian's rich collections, first-class research, and 
empowering educational materials accessible to Americans across 
the country, not just those that visit Washington, should be a 
fundamental part of the Institution's strategy moving forward.
    The Smithsonian, if able, should also have museums and 
exhibits that allow every American to feel represented. I 
believe a women's history museum, like what we are voting on 
today, could help the Smithsonian accomplish that critical 
goal, and I look forward to discussing this proposal today.
    Thank you, and I yield back.
    [The statement of Mr. Davis of Illinois follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairperson. Thank you, Mr. Davis.
    Without objection, the opening statements of all Members 
will be included in the record.
    The Chairperson. I now call up H.R. 1980. The clerk shall 
report the title of the legislation.
    The Clerk. H.R. 1980, a bill to establish in the 
Smithsonian Institution a comprehensive women's history museum, 
and for other purposes. Section 1. Short Title--
    The Chairperson. Without objection, further reading of the 
bill is dispensed with, and, without objection, the bill is 
considered as read and open for amendment at any point.
    [The bill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairperson. Does any Member seek recognition?
    Mr. Walker. Madam Chairperson, I have an amendment at the 
desk.
    The Chairperson. The gentleman is recognized, and the clerk 
will report the amendment, and the gentleman is recognized for 
five minutes in support of his amendment.
    The Clerk. Amendment to H.R. 1980 Offered by Mr. Walker of 
North Carolina----
    The Chairperson. Without objection, the amendment is 
considered as read.
    [The amendment of Mr. Walker follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairperson. Mr. Walker.
    Mr. Walker. Thank you, Madam Chairperson.
    As this museum has been discussed in the past, Madam 
Chairperson, many of my colleagues have expressed concern that 
prominent women and conservative viewpoints will not be 
properly depicted in museum programming. This amendment serves 
to ensure that all viewpoints will be represented.
    It is my hope that the museum will recognize women of all 
backgrounds who have paved the way for others in all industries 
and fields, including right here in the United States Congress.
    The very first woman elected to Congress was a Republican, 
Jeannette Rankin. Ms. Rankin was even elected before all women 
in the United States had the right to vote. She said, ``I may 
be first woman Member of Congress, but I won't be the last.'' 
She was right. Her words rang true. More than 300 women of 
several different political parties have served in Congress 
since 1917.
    During this time, we have also seen the rise of figures 
like Condoleezza Rice, Elaine Chao, and, on the Congress side, 
Shirley Chisholm and Mary Norton.
    As a father of two daughters, I am proud to honor the 
achievements of these women and many others from both sides of 
the aisle, as their hard work will give the next generation 
limitless opportunities.
    I urge my colleagues, on this amendment, to guarantee 
diverse viewpoints and equal representation as the plans for 
this museum move forward.
    Thank you, and I yield back.
    The Chairperson. Thank you.
    Does any other Member wish to be heard on the amendment?
    If not, I would simply say we are happy to accept this 
amendment. It would not be the museum we want if everyone 
wasn't represented, and we certainly approve of this amendment.
    And we will move to a vote.
    All in favor of the amendment will say aye.
    All opposed will say no.
    In the opinion of the Chair, the ayes have it.
    The clerk can note this was a unanimous vote to accept the 
amendment.
    Mr. Davis of Illinois. Madam Chairperson, I move to strike 
the last word.
    The Chairperson. The gentleman is recognized for five 
minutes.
    Mr. Davis of Illinois. The legislation before us today 
establishes a comprehensive women's history museum within the 
Smithsonian.
    In the 113th Congress, I supported the legislation creating 
the Commission which studied this issue. In its final report, 
that Commission unanimously recommended the museum's creation.
    Women have made significant contributions to the American 
experience, and I agree with the commission that those 
contributions deserve to be recognized in a dedicated national 
museum.
    With 293 bipartisan cosponsors, it is clear this 
legislation has broad support within the House and is eligible 
to be placed on the Consensus Calendar. I welcome this new 
provision in House rules as a way for measures with broad-based 
support to be considered. If it had been available in the past, 
it would have been a helpful tool for me to use with some 
legislation I have sponsored in the past. I speak from 
experience that it is frustrating to see a bill with deep 
bipartisan support be held hostage by a few individuals.
    I will vote today to move this bill to the Floor, given 
that so many of my colleagues support it. However, I do want to 
note that I am concerned that the Committee has not held a 
hearing specifically focused on this bill, as we did for 
legislation establishing the National Museum of the American 
Indian and National Museum of African American History and 
Culture.
    The Committee has a responsibility to fully examine both 
the specific proposal as well as the Smithsonian's ability to 
stand up a new museum while maintaining its existing facilities 
and collections. To help ensure the success of the museum, we 
and our colleagues must be cognizant of the scope of what that 
endeavor and Federal commitment required--will be required for 
its success.
    I recognize the important work of the Commission and value 
its report. However, their work should inform us but not 
replace Congress's role to study the issue independently. While 
this legislation and the topic of a new Smithsonian museum was 
mentioned in a cursory way at the Committee's October 17 
hearing, major issues were not explored in depth.
    These issues include, first, the size. The museum size will 
impact the location and cost of the museum. The Commission's 
report and the CBO cost estimate envision a museum of under 
100,000 square feet, significantly smaller than other 
Smithsonian history museums. Is this adequate to cover the 
scope and the breadth of a women's history museum? Would an 
additional building be required for offsite collection storage, 
and, if so, should it be authorized in this legislation?
    The Smithsonian's response to my recent inquiry indicates 
the size should be no less than 350,000 square feet, and I have 
asked the CBO to revise its estimate based on this information. 
If CBO's estimate of $190 million relies on a flawed assumption 
of the museum's size, we have an obligation to correct it and 
inform Members of the realistic figure for Federal costs to 
support the museum.
    Second, the location. H.R. 1980 directs the Board of 
Regents to select from one of two sites or an alternate 
location identified by the board within six months of 
enactment. Has a comprehensive site assessment been conducted 
to determine suitability for a museum of the appropriate size? 
If not, is six months enough time for such an assessment to be 
completed?
    The two sites identified in the bill are under the 
jurisdiction of the Architect of the Capitol and the National 
Park Service. My question is, do these entities have any 
concerns that should be addressed?
    Third, I wonder about the capacity of the Smithsonian to 
handle a new museum. As the Committee is aware and the 
commission report noted, the Smithsonian faces several 
facilities challenges: a deferred maintenance backlog of over a 
billion dollars, a $900 million renovation of the National Air 
and Space Museum, and 47 percent of collection storage space 
identified as unacceptable. What is the Smithsonian's specific 
plan and timing to address these issues, and how will the 
addition of a new museum impact that plan?
    Finally, the cost. What is the expectation of Federal 
funding needed to address the maintenance backlog, support 
ongoing facilities care, and provide for the construction and 
operating costs of a new museum?
    Absent a hearing in advance of this markup, I hope the 
Committee can pursue any other appropriate mechanisms to 
examine these issues, with the intention of providing a solid 
foundation for the creation and making a reality the 
Smithsonian Women's History Museum.
    Thank you, Madam Chairperson, and I yield back.
    The Chairperson. Thank you, Mr. Davis.
    I think this is an important day in moving forward on this 
issue. As you know, in past years, we have had hearings. And 
you are right; we had a less detailed discussion with Secretary 
Bunch. But I was taken by his comment, when he appeared before 
us, that it took him 10 years to stand up the African American 
Museum, and you don't get there unless you start. So, really, 
this is a matter of starting.
    We are going to have to keep oversight on this project. I 
am sure there are things that will change. This is an 
authorization, not an appropriation, so this doesn't mean this 
is necessarily going to happen. It is subject to 
appropriations. If we don't take this first step, we know it 
won't happen.
    And so this is a very important day for our Committee and 
for our country to begin the process of this creation.
    Mr. Davis of Illinois. Madam Chairperson, I move to strike 
the requisite number of words.
    The Chairperson. I am not quite finished.
    Mr. Davis of Illinois. Okay.
    The Chairperson. I will yield to you in a minute.
    I just wanted to note also, because I don't think we 
publicized this, but we have, Mr. Davis and I, reached out to 
the Interior Subcommittee of the Appropriations Committee, 
requesting robust funding in fiscal year 2021 to address the 
Smithsonian's backlog of maintenance. It is time to step 
forward and deal with that issue.
    I remember, years ago, former Representative Vic Fazio was 
first Ranking Member and then Chairman of this Committee, and 
they decided they had to do something about the deferred 
maintenance in the Library of Congress and in the Botanical 
Gardens. And it was not cheap, but these buildings are held in 
trust by us for the public. So they saved the Library, the 
historic building, from further deterioration, as well as the 
Botanical Gardens, and the public benefits from that today.
    So I am hopeful that we can approach the Smithsonian 
deferred maintenance backlog in that same spirit. I was 
grateful that Mr. Davis joined me in sending that letter to the 
Appropriations Committee.
    And now I would happily yield to Mr. Davis for further 
comments he might have.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    And I, too, believe this is a historic day. And I do 
believe that we will have nothing but a bipartisan vote and 
bipartisan support to move this important legislation forward. 
I felt it was just necessary for us to bring up some of the 
concerns, and I look forward to addressing those through the 
oversight process. I look forward to working with you, 
advocating for this project to move forward with our 
appropriate appropriations subcommittees and committee. And I 
am excited to see the bipartisanship that we are going to be 
able to exhibit tonight.
    And I will yield back.
    The Chairperson. Unless there are further requests to speak 
or further amendments, the question is on H.R. 1980, as 
amended.
    All in favor will say aye.
    All opposed will say no.
    In the opinion of the Chair, the ayes have it.
    The clerk will note that that has passed unanimously with 
no ``no'' votes.
    The Chairperson. The question is on reporting H.R. 1980, as 
amended, favorably to the House.
    All those who are in favor will say aye.
    And we should note that our member Susan Davis, whose 
flight was delayed from California, is here in time to cast her 
vote for final passage of H.R. 1980.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it.
    Without objection H.R. 1980, as amended is now reported 
favorably to the House. Without objection, the staff is given 
authorization to make technical and conforming changes,.
    And there being no further business before the Committee, 
thank you, Members, for participating in this great first day 
and first big step forward on the creation of this women's 
museum, and, without objection, we are adjourned.
    [Whereupon, at 6:20 p.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
